No. 20-697
IN THE

Supreme Court of the United States
___________
ORLANDO CORDIA HALL,
Petitioner,
-versusT.J. WATSON, IN HIS OFFICIAL CAPACITY AS COMPLEX WARDEN OF U.S.P. FEDERAL
CORRECTIONAL COMPLEX (FCC) TERRE HAUTE,
Respondent.
___________
EMERGENCY APPLICATION FOR A STAY OF EXECUTION
___________
MOTION OF NAACP LEGAL DEFENSE & EDUCATIONAL FUND, INC. FOR
LEAVE TO FILE AMICUS CURIAE BRIEF IN SUPPORT OF PETITIONER’S
EMERGENCY APPLICATION FOR A STAY OF EXECUTION
___________
The NAACP Legal Defense & Educational Fund, Inc. (“LDF”) respectfully
moves for leave to file the enclosed brief as amicus curiae in support of Petitioner
Orlando Cordia Hall’s Emergency Application for a Stay of Execution, filed November
19, 2020 (i) without 10 days’ advance notice to the parties as ordinarily required by
Sup. Ct. R. 37.2(a), and (ii) in an unbound format on 8 1/2-by-11-inch paper rather
than in booklet form.
Petitioner, who is scheduled to be executed by the United States at 6 PM CST
today, filed his Emergency Application for a Stay of Execution this afternoon, shortly
after the denial of such relief by the United States Court of Appeals for the Seventh
Circuit. In light of this expedited schedule, it was not feasible for LDF to provide 10
days’ notice to the parties of its intention to file an amicus curiae brief. In addition,

the compressed time frame prevented LDF from finalizing its brief with sufficient
time to allow for it to be printed and filed in booklet form.
As set forth in the enclosed brief, LDF has a strong interest in the outcome of
Petitioner’s Emergency Application for a Stay of Execution. LDF is the nation’s first
and foremost civil rights law organization. Through litigation, advocacy, public
education, and outreach, LDF strives to secure equal justice under the law for all
Americans and to break down barriers that prevent African Americans from realizing
their basic civil and human rights.
LDF has long been concerned about the persistent and pernicious influence of
race on the administration of the criminal justice system in general, and on jury
selection in particular. We have represented defendants in Swain v. Alabama, 380
U.S. 202 (1965), Alexander v. Louisiana, 405 U.S. 625 (1972), and Ham v. South

Carolina, 409 U.S. 524 (1973); pioneered the affirmative use of civil actions to end
jury discrimination, Carter v. Jury Commission of Greene County, 396 U.S. 320
(1970), Turner v. Fouche, 396 U.S. 346 (1970); and appeared as amicus curiae in
myriad jury discrimination cases, including Batson v. Kentucky, 476 U.S. 79 (1986),

Edmonson v. Leesville Concrete Co., 500 U.S. 614 (1991), Georgia v. McCollum, 505
U.S. 42 (1992), Miller-El v. Cockrel, 537 U.S. 322 (2003), Johnson v. California, 545
U.S. 162 (2005), Miller-El v. Dretke, 545 U.S. 231 (2005), and Flowers v. Mississippi,
139 S. Ct. 2228 (2019).
LDF thus has a distinct perspective on the issues presented in this matter, and
its amicus brief includes relevant material not brought to the attention of the Court
by the parties that may be of considerable assistance to the Court. See Sup. Ct. R.

2

37.1. LDF’s brief argues that Mr. Hall’s important constitutional claims can only
proceed under § 2241, which provides a remedy where other means of challenging
confinement, i.e., § 2255, are unavailable. LDF’s brief also argues that claims that
racial discrimination has infected a death sentence are different in kind than other
constitutional harms. “Defendants are harmed, of course, when racial discrimination
in jury selection compromises the right of trial by impartial jury.” Miller-El v. Dretke,
545 U.S. 231, 237 (2005) (internal citations omitted). But, as this Court stressed in
another capital case involving such discrimination, the harm is not limited to the
defendant. “[R]acial minorities are harmed more generally, for prosecutors drawing
racial lines in picking juries establish ‘state-sponsored group stereotypes rooted in,
and reflective of, historical prejudice.’” Id. at 237–38 (internal citation omitted). And,
more broadly, there is a serious injury to the rule of law itself: “the very integrity of
the courts is jeopardized when a prosecutor’s discrimination invites cynicism
respecting the jury’s neutrality.” Id. at 237 (internal citations omitted). Similarly,
where a petitioner presents evidence that an entire system of capital sentencing is
tainted by racial discrimination, the harm extends beyond the defendant by
establishing state- sponsored prejudices that undermine the rule of law.
In light of these unique harms, this Court has emphasized the need to
“engage[] in ‘unceasing efforts’ to eradicate racial prejudice from our criminal justice
system.” McCleskey v. Kemp, 481 U.S. 279, 309 (1987) (internal citation omitted). Of
particular significance here, the Government’s ordinary interest in finality should not
be accorded the same weight when the petitioner raises a substantial claim that his
sentence of death is tainted by racial discrimination. As the Court recently explained,
3

the “the State’s interest in finality deserves little weight” when a petitioner
demonstrates (even years after the denial of an initial habeas petition) that his death
sentence was affected by such discrimination, because states “lack an interest in
enforcing a capital sentence obtained on so flawed a basis.” Buck v. Davis, 137 S. Ct.
759, 779 (2017). The United States here similarly lacks an interest in enforcing a
death sentence obtained based on racial discrimination, and it would be a miscarriage
of justice for Mr. Hall to be executed without any court considering the significant
evidence he has presented that his death sentence was “obtained on so flawed a
basis.” Id.
Mr. Hall’s habeas petition implicates the odious effects of race discrimination
in both the jury selection and capital punishment contexts.

Accordingly, LDF

respectfully urges this Court to stay Mr. Hall’s execution so that his claims may be
adjudicated and respectfully requests that this Court grant leave to file the
accompanying amicus curiae brief.

4

Dated: November 19, 2020

Respectfully submitted,

/s/ Samuel Spital
SHERRILYN A. IFILL

President and Director-Counsel

SAMUEL SPITAL*
JIN HEE LEE
KEVIN E. JASON
NAACP LEGAL DEFENSE &
EDUCATIONAL FUND, INC.
40 Rector Street, 5th Floor
New York, NY 10006
sspital@naacpldf.org
ANUJA D. THATTE
MAHOGANE D. REED
NAACP LEGAL DEFENSE &
EDUCATIONAL FUND, INC.
700 14th Street NW
Washington, DC 20005
(202) 682-1300
*Counsel of Record

Counsel for Amicus Curiae NAACP
Legal Defense & Educational Fund,
Inc.

5

